No. 20-__

 

 

IN THE

Supreme Court of the Anited States

GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER

v.

GAVIN GRIMM

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,922 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 19, 2021.

 

Colin Casey Wogan
Wilson-Epes Printing Co., Inc.
